- -
Dr. R,
                                CLOSEOUT FOR M97100036

       This case came to OIG on October 17, 1997, when we received a memorandum from
               a program director for
had received an anonymous letter alleging that the
                                                                        The program director

Center (the Center) "exists only on paper." The letter alleges that the Center's director,
              had made numerous, unspecified false claims about the Center's activities.

        Insofar as the letter questions the value of funding the Center, rather than the individual
investigators who are affiliated with it, this is a managerial question. Insofar as the letter
alleges that the Center has made false claims in its communications with NSF, and that NSF
chose to fund the Center on the basis of these claims, this is a matter for OIG's investigations
unit.

      We have transferred this case to the investigations unit for further consideration. This
misconduct in science inquiry is closed.

cc: AIG-0,IG
